Nos. 19-431 & 19-454
In the

Supreme Court of the United States
LITTLE SISTERS OF THE POOR SAINTS
PETER AND PAUL HOME,
Petitioner,
v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.
DONALD J. TRUMP, PRESIDENT
OF THE UNITED STATES, et al.,
Petitioners,
v.
COMMONWEALTH OF PENNSYLVANIA
AND STATE OF NEW JERSEY,
Respondents.
On Writs of Certiorari to the United States
Court of A ppeals for the Third Circuit
BRIEF OF AMICI CURIAE AMERICAN COLLEGE OF
OBSTETRICIANS AND GYNECOLOGISTS, AMERICAN
NURSES ASSOCIATION, AMERICAN ACADEMY OF
NURSING, PHYSICIANS FOR REPRODUCTIVE HEALTH,
AND NURSES FOR SEXUAL AND REPRODUCTIVE HEALTH
IN SUPPORT OF RESPONDENTS AND AFFIRMANCE

Bruce H. Schneider
Counsel of Record
Michele L. Pahmer
Darya D. A nichkova
Stroock & Stroock & Lavan LLP
180 Maiden Lane
New York, New York 10038
(212) 806-5400
bschneider@stroock.com
Counsel for Amici Curiae
295484

i
TABLE OF CONTENTS
Page
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
Interest of Amici Curiae . . . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
I.

THE Final Rules CONTRAVENE
THE ACA’S MANDATE THAT WOMEN
BE ENTITLED TO CONTRACEPTIVE
COV ER AGE AT NO additional
COST  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
A. C ont r a c ept ion i s a n E s s e nt i a l
Component of Women’s Preventive
Health Care . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
1.

Unintended Pregnancy and Short
Interpregnancy Intervals Pose
Health Risks to Women and
Children . . . . . . . . . . . . . . . . . . . . . . . . . . 9

2. Contraception is Beneficial for
Women w ith Cer tain Health
Conditions or Risks . . . . . . . . . . . . . . . . 12
B. Providing Contraceptive Coverage
At No Additional Cost Promotes
Use of Effective and Appropriate
Contraception  . . . . . . . . . . . . . . . . . . . . . . . 14

ii
Table of Contents
Page
II. THE Final Rules RESTRICT ACCESS
TO CARE AND cOMPROMISE THE
PATIENT PROVIDER RELATIONSHIP
BY DI VORCING REPRODUCT I V E
HEALTH FROM OTHER PREVENTIVE
HEALTH CARE SERVICES . . . . . . . . . . . . . . 19
A. The Final Rules Undermine the PatientProvider Relationship  . . . . . . . . . . . . . . . . . 20
B. The Final Rules Undermine Seamless
and Equal Access to Care for Many
Women . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

iii
TABLE OF CITED AUTHORITIES
Page
Cases
Burwell v. Hobby Lobby Stores, Inc.,
573 U.S. 682 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Harris v. McRae,
448 U.S. 297 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Stenberg v. Carhart,
530 U.S. 914 (2000)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Zubik v. Burwell,
136 S. Ct. 1557 (2016)  . . . . . . . . . . . . . . . . . . . . . . 22, 23
Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292 (2016) . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Other Authorities
83 Fed. Reg. 57,536 (Nov. 15, 2018)  . . . . . . . . . . 20, 22, 23
Am. Acad. of Pediatrics, Policy Statement:
Breastfeeding and the Use of Human Milk,
129 Pediatrics 827 (2012) . . . . . . . . . . . . . . . . . . . . . . 10
Am. Acad. of Pediatrics, Policy Statement:
Contraception and Adolescents,
120 Pediatrics 1135 (2007)  . . . . . . . . . . . . . . . . . . . .  17

iv
Cited Authorities
Page
A m. Acad. Of Ped iat r ics & A m. Col l. of
Obstetricians & Gynecologists, Guidelines
for Perinatal Care, 205 (8th ed. 2017) . . . . . . . . . . 12
Am. Coll. of Obstetricians & Gynecologists,
Access to Contraception, Comm. Op. 615,
Jan. 2015 (reaffirmed 2017) . . . . . . . . . . . . . . . . . . . . . 7
Am. Coll. of Obstetricians & Gynecologists,
Guidelines For Women’s Health Care 343
(4th ed. 2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 9, 13, 20
Am. Coll. of Obstetricians & Gynecologists,
Increasing Access to Contraceptive Implants
a n d In t r a u t e r in e De v i c e s t o Re d u c e
Unintended Pregnancy, Comm. Op. 642,
Oct. 2015 (reaffirmed 2018) . . . . . . . . . . . . . . . . . . . .  17
Am. Coll. of Obstetricians & Gynecologists, LongActing Reversible Contraception: Implants
and Intrauterine Devices, Practice Bulletin
186, 130 Obstet. & Gynecol. e251 (2017) . . . . . . . . . . 6
Am. Coll. of Obstetricians & Gynecologists,
Reproductive Life Planning to Reduce
Unintended Pregnancy, Comm. Op. 654,
127 Obstet. & Gynecol. 66 (Feb. 2016).  . . . . . . . . . 21
E . A . A z t l a n - Ja me s et a l ., Mu l tipl e
Unintended Pregnancies in U.S. Women:
A Systematic Review, 27 Women ’s H ealth
Issues 407 (2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

v
Cited Authorities
Page
Jennifer S. Barber et al., Unwanted Childbearing,
Health, and Mother-Child Relationships,
40 J. H e a lt h a n d S o ci a l B eh av ior 231
(1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Frederic Blavin et al., Using Behavioral Economics
to Inform the Integration of Human Services
and Health Programs under the Affordable
Care Act, Urban Inst. (July 2014), . . . . . . . . . . . . 24, 25
Ronald Burkman et al., Safety Concerns and Health
Benefits Associated With Oral Contraception ,
190 A m. J. of Obstet. & Gynecol. S5 (2004) . . . . . . 13
Caroline S. Carlin et al., Affordable Care
Act’s Mandate Eliminating Contraceptive
C o s t Sh a r i n g In f l u e n c e d C h o i c e s of
Wo m e n W i t h E m p l o y e r C o v e r a g e ,
35:9 Health A ffairs 1608 (2016)  . . . . . . . . . . . . . . . 19
Ct rs. for Disea se Cont rol & P revent ion,
Achievements in Public Health, 1900-1999:
Family Planning, (Dec. 3, 1999). . . . . . . . . . . . . . . . 12
Ctrs. for Disease Control & Prevention, U.S.
Medical Eligibility Criteria for Contraceptive
	Use, 2010 Vol. 59 (June 18, 2010) . . . . . . . . . . . . . . . . 13
Agustin Conde-Agudelo et al., Birth Spacing and
Risk of Adverse Perinatal Outcomes: A Meta
–Analysis, 295 J. A m. Med. A ss’n 1809 (2006)  . . . . 12

vi
Cited Authorities
Page
Agustin Conde-Agudelo & Jose M. Belizan,
Maternal Morbidity and Mortality Associated
with Interpregnancy Interval: Cross Sectional
Study, 321 British Med. J. 1255 (2000)  . . . . . . . . . 11
Kel ly R . C u l wel l & Jo e Fei ngl a s s , T h e
Association of Health Insurance with Use
of Prescription Contraceptives, 39 P ersp.
on Sexual & Reprod. Health 226 (2007)  . . . . . . . . 14
Kelly R. Culwell & Joe Feinglass, Changes
in Prescription Contraceptive Use, 199520 02: The Ef fect of Insurance Status ,
110 Obstet. & Gyn. 1371 (2007) . . . . . . . . . . . . . . . . . 14
F. G a r y C u n n i n g h a m e t a l . , W i l l i a ms
	Obstetrics (23d ed. 2010) . . . . . . . . . . . . . . . . . . . . . . 13
Stacie B. Dusetzina et al., Cost of Contraceptive
Methods to Privately Insured Women in the
United States, 23 Women’s Health Issues e69
(2013) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
David Eisenberg et al., Cost as a Barrier to
Lo n g-Actin g Reversibl e Co ntra ceptive
( L A R C ) Us e i n A d o l e s c e n t s , J . o f
	A dolescent Health, 52(4):S59 (2013)  . . . . . . . . . . . 15
Lawrence B. Finer & Mia R. Zolna, Declines in
Unintended Pregnancy in the United States,
2008–2011, 374:9 New Eng. J. Med. 843 (2016)  . . . . . 9

vii
Cited Authorities
Page
Law rence B. Finer & Mia R . Zolna ,
Unint en d ed Pregn an cy in th e Unit ed
States: Incidence and Disparities, 2006,
84 Contraception 478 (2011) . . . . . . . . . . . . . . . . . . . . 9
Diana Greene Foster et al., Number of Oral
Contraceptive Pill Packages Dispensed
and Subsequent Unintended Pregnancies,
117 Obstet. & Gynecol. 566 (2011) . . . . . . . . . . .  25-26
Jennifer J. Frost & Jacqueline E. Darroch,
Factors Associated with Contraceptive
Ch oice an d In co n si st ent Meth od Use ,
United States, 2004, 40:2 P ersp. on Sexual
& Reprod. Health 94 (2008) . . . . . . . . . . . . .  16, 19, 21
Jessica D. Gipson et al., The Effects of Unintended
Pregnancy on Infant, Child, and Parental
Health: A Review of the Literature, 39
Stud. in Fam. Planning 18 (2008) . . . . . . . . . . . . 10, 12
Rachel Benson Gold, The Implications of
Defining When a Woman is Pregnant 8:2
Guttmacher Pol’y Rev. 7 (2005) . . . . . . . . . . . . . . . . . 6
Rachel Benson Gold, et al., Next Steps for
Amer ica’s Family Planning Program:
Leveraging the Potential of Medicaid and
Title X in an Evolving Health Care System,
Guttmacher Inst. (February 2009) . . . . . . . . . . . . . . . 8

viii
Cited Authorities
Page
G u t t m a c h e r I n s t . , Mo v i n g Fo r w a r d :
Family Planning in the Era of Health
Reform (Mar. 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
Guttmacher Inst., Sharing Responsibility:
Women, Society and Abortion Worldwide
(1999) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Guttmacher Inst., Testimony of Guttmacher
Institute Submitted to the Committee on
Preventive Services for Women Institute
of Medicine (Jan. 12, 2011) . . . . . . . . . . . . . . . . . .  14, 15
Guttmacher Inst., Unintended Pregnancy
in the United States (Jan. 2019)  . . . . . . . . . . . . . . . .  17
Lina Guzman et al., Unintended Births: Patterns by
Race and Ethnicity and Relationship Type 42:3
Persp. on Sexual & Reprod. Health (2010)  . . . . . . 12
Inst. of Med., Clinical Preventive Services
for Women: Closing the Gaps 104 (2011) . . . . . 6, 7, 13
Rachel K . Jones & Joerg Dreweke,
Countering Conventional Wisdom: New
Evidence on Religion and Contraceptive
	Use, Guttmacher Inst. (April 2011) . . . . . . . . . . . . . . . 9

ix
Cited Authorities
Page
Megan L. Kavanaugh et al., Perceived and
In s u r a n c e - R e l a t e d B a r r i e r s t o t h e
Provision of Contraceptive Ser vices in
U.S. Abortion Care Settings, 21 Women ’s
	Health Issues S26 (3d Suppl. 2011) . . . . . . . . . . . . . 15
Meg a n L . K ava n augh & Jen n a Jer m a n ,
Contraceptive Method Use In The United
States: Trends and Characteristics Between
2008, 2012 and 2014, Guttmacher Inst.
(Oct. 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Su-Ying Liang et al., Women’s Out-of-Pocket
Expenditures and Dispensing Patterns
for Oral Contraceptive Pills Between 1996
and 2006, 83 Contraception 528 (2011) . . . . . . . . . . 16
Gladys Martinez et al., Use of Family Planning
an d Rel ated Medical Ser v ices Am o n g
Women Aged 15-44 in the United States:
National Survey of Family Growth, 20062010, Nat’l Health Stat. Rep. (Sept. 5, 2013) . . . . . . . 8
Jeffrey P. Mayer, Unintended Childbearing,
Maternal Beliefs, and Delay of Prenatal
Care, 24 Birth 247 (1997) . . . . . . . . . . . . . . . . . . . . . . . 7
Jodi Nearns, Health Insurance Coverage and
Prescr iption Contraceptive Use Among
Young Women at Risk for Unintended
Pregnancy, 79 Contraception 105 (2009) . . . . . . . . 18

x
Cited Authorities
Page
Suezanne T. Orr et al., Unintended Pregnancy
and Preter m Bir th , 14 Pa edi at r ic a n d
Perinatal Epidemiology 309 (2000) . . . . . . . . . . . . . . 7
Jeffrey Peipert et al., Preventing Unintended
P r e g n a n c i e s b y P r o v i d i n g No - C o s t
Contraception, 120 Obstet. & Gynecol. 1291
(2012) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
Debbie Postlethwaite et al., A Comparison of
Contraceptive Procurement Pre- and PostBenefit Change, 76 Contraception 360 (2007)  . . . . 14
Dahlia K. Remler & Sherry A. Glied, What
Other Programs Can Teach Us: Increasing
Participation in Health Insurance Programs,
93 A merican J. Pub. Health 67 (2003)  . . . . . . .  24-25
Prakesh S. Shah et al., Intention to Become
Pregn ant an d Lo w Bir th Wei ght an d
Preterm Birth: A Systematic Review, 15
Maternal & Child Health J. 205 (2011)  . . . . . . . . 10
Ashley H. Snyder, et al., The Impact of the
Affordable Care Act on Contraceptive Use and
Costs among Privately Insured Women, 28
Women’s Health Issues 219 (2018)  . . . . . . . . . . . . . . 19
Lau r ie Sobel et al., The Future of
Contraceptive Coverage, Kaiser Family
Foundation Issue Brief (2017) . . . . . . . . . . . . . . . . . . 18

xi
Cited Authorities
Page
Adam Sonfield & Kathryn Kost, Public Costs from
Unintended Pregnancies and the Role of Public
Insurance Programs in Paying for PregnancyRelated Care: National and State Estimates for
2010, Guttmacher Institute (2015). . . . . . . . . . . . . . . . 7
Ada m S on f ield, Th e Ca se fo r In s ur an ce
Co vera ge of Co ntra ceptive Ser v ices
a n d Su p p li e s Wi t h o u t Cos t - Sh a r in g ,
14 Guttmacher Pol’y Rev. 7 (2011) . . . . . . . . . . . . . . 18
Adam Sonfield, What is at Stake with the
Federal Contraceptive Coverage Guarantee?,
20 Guttmacher Pol’y Rev. 8 (2017) . . . . . . . . . . . . . . 18
Ca ss R . Su nst ei n, Dec i din g b y Default ,
162 U. Pa. L. Rev. 1 (2013) . . . . . . . . . . . . . . . . . . . . . 25
Cass R. Sunstein, Nudges.gov: Behavioral
	Economics and Regulation 3 (Feb. 2013) . . . . . . . . 25
U.S. Department of Health and Human Services,
Health Resources and Services Administration, &
Maternal and Child Health Bureau, Unintended
Pregnancy and Contraception (2011)  . . . . . . . . . 11-12
Brooke Winner et. al, Effectiveness of LongActing Reversible Contraception,
366 New Eng. J. Med. 1998 (2012)  . . . . . . . . . . . . . . 15

xii
Cited Authorities
Page
Bao -P i ng Zhu, Ef fec t of Int er p regn an cy
Inter val on Bir th Outcomes: Findings
From Three Recent U.S. Studies, 89 Int ’l
J. Gynecol. & Obstet. S25 (2005) . . . . . . . . . . . . . . . 12

1
Interest of Amici Curiae1
Amici, listed below, are leading health professional
organizations that are directly involved in the provision
of health care to women. Amici share the common goal of
improving health for all by, among other things, ensuring
that women have access to high quality medical care that
is comprehensive and evidence-based. Well-established
and evidence-based standards of care recommend
access to contraception and contraception counseling as
essential components of effective health care for women
and adolescents of childbearing age. 2
A m e r i c a n C o l le g e o f O b s t e t r i c i a n s a n d
Gynecologists (ACOG) is a non-profit educational
1. Petitioners and Respondents have granted blanket consent
to the filing of amicus briefs in this case in letters on file with the
Court. Pursuant to Supreme Court Rule 37.6, amici state that no
counsel for a party authored this brief in whole or in part and no
person other than amici, their members, or their counsel made
a monetary contribution intended to fund the preparation or
submission of this brief.
2. This Cour t has relied on submissions by amici as
authoritative sources of medical information on issues concerning
women’s health care. See, e.g., Whole Woman’s Health v. Hellerstedt,
136 S. Ct. 2292, 2312, 2315 (2016) (citing amici brief submitted by
ACOG and other health professional organizations in reviewing
clinical and privileging requirements); Stenberg v. Carhart, 530 U.S.
914, 932-936 (2000) (quoting ACOG’s amicus brief extensively and
recognizing ACOG as a “significant medical authority”); Burwell
v. Hobby Lobby Stores, Inc., 573 U.S. 682, 761 (2014) (Ginsburg,
J., dissenting) (citing amici brief submitted by ACOG, PRH, and
other health professional organizations in its discussion of how
contraceptive coverage helps safeguard the health of women for
whom pregnancy may be hazardous).

2
and professional organization. With more than 60,000
members, ACOG is the leading professional association
of physicians who specialize in the health care of women.
ACOG’s members represent more than 90% of all boardcertified obstetricians and gynecologists practicing in the
United States.
American Nurses Association (“ANA”) represents
the interests of the nation’s four million registered nurses.
With members in every state, ANA is comprised of state
nurses associations and individual nurses. ANA is an
advocate for social justice with particular attention to
preserving the human rights of vulnerable groups, such
as the poor, homeless, elderly, mentally ill, prisoners,
refugees, women, children, and socially stigmatized
groups.
The American Academy of Nursing (Academy)
serves the public by advancing health policy through
the generation, synthesis, and dissemination of nursing
knowledge. Academy Fellows are inducted into the
organization for their extraordinary contributions to
improve health locally and globally. With more than
2,800 Fellows, the Academy represents nursing’s most
accomplished leaders in policy, research, administration,
practice, and academia.
Physicians for Reproductive Health (PRH) is
a doctor-led national not-for-profit organization that
relies upon evidence-based medicine to promote sound
reproductive health care policies. Comprised of physicians,
PRH brings medical expertise to discussions of public
policy on issues affecting reproductive health care and
advocates for the provision of comprehensive reproductive
health services as part of mainstream medical care.

3
Nurses for Sexual and Reproductive Health
(NSRH) provides students, nurses and midwives with
education and resources to become skilled care providers
and social change agents in sexual and reproductive health
and justice.
SUMMARY OF ARGUMENT
The current health-care crisis this nation is facing
demonstrates the importance of ensuring that the
country’s health care policy not be compromised by
political or private interests. The Final Religious
Exemption Rule and Final Moral Exemption Rule at issue
(the “Final Rules”) are not only capricious and contrary
to the contraception coverage requirement of the Patient
Protection and Affordable Care Act (ACA), but they also
jeopardize the health and well-being of countless women
and their families by depriving them of an important
component of women’s health care.
The ACA made prevention a priority in the nation’s
health care policy by requiring private health insurance
plans to cover various essential preventive care services
with no additional cost sharing for the patient. Among the
preventive services that the ACA requires be covered,
without deductible or co-pay, are screenings for various
conditions, such as cholesterol tests and colonoscopy
screenings; pediatric and adult vaccinations; as well
as women’s preventive health services, including FDAapproved contraceptives prescribed by a health care
provider.
Contraception not only helps to prevent unintended
pregnancy, but also helps to protect the health and

4
well-being of women and their children. The benefits of
contraception are widely recognized and include improved
health and well-being, reduced maternal mortality, health
benefits of pregnancy spacing for maternal and child
health, female engagement in the work force, and economic
self-sufficiency for women. Conversely, as recognized
by the Circuit Court, “removing cost free contraceptive
coverage can have ramifications on women’s health beyond
birth control and unplanned pregnancies.” Pet. App. at 24a.
The contraception coverage requirement recognizes that
women of childbearing age have unique health needs and
that contraception counseling and services are essential
components of women’s routine preventive health care.
There is a compelling national interest in addressing
the medical and social consequences of unintended
pregnancy and promoting the widespread availability
of medically appropriate contraception for all women.
However, the Final Rules threaten to deprive countless
women nationwide of the no-cost contraceptive coverage
that must be provided under the ACA’s preventive care
requirement. The breadth of the Final Rules, which allow
any employer or health insurance provider itself to exclude
contraception from coverage by invoking religious or
moral objections, expands impermissibly the category of
persons who may deprive their employees of contraceptive
coverage. The Final Rules threaten the health of women
and families throughout the United States, undermining
Congress’s very objective in making comprehensive
preventive women’s health care widely accessible, and
disrupting the seamless provision of health care within
the existing patient-provider relationship. The overlybroad self-exemptions made available by the Final Rules
effectively downgrade contraceptive coverage from a legal

5
entitlement under the ACA to a voluntary employment
benefit at the discretion of the employer. If allowed to
take effect, the Final Rules will compromise access to a
critical component of women’s preventive health care for
countless American women.
A religious accommodation to the contraceptive
coverage requirement already exists, allowing certain
qualifying employers to exclude contraceptive coverage
from the health insurance they arrange for their employees.
Because an employer’s opt-out creates a gap in coverage,
the existing accommodation ensures that the gap is filled
seamlessly by third parties (the group plan insurer or
administrator) without any coverage interruption or
change in services for the covered individual. The Final
Rules, by contrast, fail to ensure this vital and seamless
continuity of care. Similarly, other proposed alternatives
to the contraceptive coverage requirement and the
existing accommodation require an up-front payment or
separate enrollment, or impose administrative hurdles
to obtaining contraception coverage that do not exist for
other health care services and are not equally effective at
accomplishing the compelling national interest in making
comprehensive preventive women’s health care widely
accessible.

6
ARGUMENT
I.

THE Final Rules CONTRAVENE THE ACA’S
MA NDATE THAT WOMEN BE ENTITLED
TO CONTRACEPTIVE COVERAGE AT NO
additional COST
A.

Contraception is an Essential Component of
Women’s Preventive Health Care3

There is a compelling national interest in addressing
the medical and social consequences of unintended
pregnancy and promoting the widespread availability
of medically appropriate contraception for all health
insurance plan beneficiaries who want it. The ACA’s
coverage requirement for FDA-approved contraceptives
and counseling comports w ith g uidance for good
clinical practice for health care professionals. See,
e.g., Inst. of Med., Clinical Preventive Services for
Women: Closing the Gaps 104 (2011) (“IOM Report”);
3. Petitioners mischaracterize FDA-approved contraceptives
as “abortifacients.” See Pet. Little Sisters’ Br. at 8. However, none of
the FDA-approved contraceptive drugs or devices causes abortion;
rather, they prevent pregnancy. Medically speaking, pregnancy
begins only upon implantation of a fertilized egg in the uterine
lining. See, e.g., Rachel Benson Gold, The Implications of Defining
When a Woman is Pregnant, 8:2 Guttmacher Pol’y Rev. 7 (2005);
Am. Coll. of Obstetricians & Gynecologists, Long-Acting Reversible
Contraception: Implants and Intrauterine Devices, Practice
Bulletin 186, 130 Obstet. & Gynecol. e251, e252-253 (2017) (available
evidence supports that mechanism of action for intrauterine devices
is preventing fertilization and not disrupting pregnancy). Regardless
of one’s personal or religious beliefs, the medical terms “abortion”
and “abortifacient” refer to – and should only be used in connection
with – the termination of a pregnancy, not the prevention of it.

7
Am. Coll. Of Obstetricians & Gynecologists, Access to
Contraception, Comm. Op. 615, Jan. 2015 (reaffirmed
2017) (“ACOG Comm. Op. 615”). Indeed, in recommending
that contraceptive methods and counseling be included
within the preventive services required by the ACA, the
Institute of Medicine (“IOM”) recognized that the risk
of unintended pregnancy affects a broad population and
significantly impacts health. IOM Report at 8. It has
long been established that unintended pregnancies have
negative health consequences for women and children and
contraception services are, therefore, critically important
public health measures. See, e.g., Jeffrey P. Mayer,
Unintended Childbearing, Maternal Beliefs, and Delay
of Prenatal Care, 24 Birth 247, 250-51 (1997); Suezanne T.
Orr et al., Unintended Pregnancy and Preterm Birth, 14
Paediatric and Perinatal Epidemiology 309, 312 (2000);
Jennifer S. Barber et al., Unwanted Childbearing, Health,
and Mother-Child Relationships, 40 J. Health and Social
Behavior 231, 252 (1999).
Many women and their families struggle with the
medical, ethical, financial, or other challenges presented
by unintended pregnancy. ACOG Comm. Op. 615.
Unintended pregnancies impose significant financial costs
to the government as well. Unplanned pregnancies cost
approximately $21 billion in government expenditures
in 2010. Adam Sonfield & Kathryn Kost, Public Costs
from Unintended Pregnancies and the Role of Public
Insurance Programs in Paying for Pregnancy-Related
Care: National and State Estimates for 2010, Guttmacher
Inst. (2015), https://www.guttmacher.org/sites/default/
files/report_pdf/public-costs-of-up-2010.pdf. The Circuit
Court correctly recognized that the Final Rules pose
financial harm to the States, as States will have to fill

8
the coverage gaps created by the Final Rules as well as
bear the continuing costs of unintended pregnancies and
associated health care costs resulting from the loss of
contraceptive coverage. Pet. App. at 25a (“ . . . some women
who lose contraceptive coverage may either fail to qualify
for state services or elect to forego the use of contraceptives
altogether. Women who stop using contraception are more
likely to have unplanned pregnancies and to require
additional medical attention. The costs of such unintended
pregnancies are often shouldered by the states, costing
hundreds of millions of dollars.”) (internal quotation marks
and citations omitted).
Access to contraception is a medical necessity for
women during approximately thirty years of their lives—
from adolescence to menopause. See Rachel Benson
Gold et al., Next Steps for America’s Family Planning
Program: Leveraging the Potential of Medicaid and
Title X in an Evolving Health Care System, Guttmacher
Inst. (February 2009), http://www.guttmacher.org/pubs
/NextSteps.pdf; see also Gladys Martinez et al., Use of
Family Planning and Related Medical Services Among
Women Aged 15-44 in the United States: National Survey
of Family Growth, 2006-2010, Nat’l Health Stat. Rep. (Sept.
5, 2013), http://www.cdc.gov/nchs/data/nhsr/nhsr068.pdf.
Without the ability to control her fertility during her
childbearing years, a woman is potentially capable of
experiencing approximately twelve pregnancies during
her lifetime. Guttmacher Inst., Sharing Responsibility:
Women, Society and Abortion Worldwide, 18 (1999),
https://www.guttmacher.org/pubs/sharing.pdf.
Vir tually all A mer ican women who have had
heterosexual sex have used contraception at some point

9
during their lifetimes, irrespective of their religious
affiliation. Rachel K. Jones & Joerg Dreweke, Countering
Conventional Wisdom: New Evidence on Religion and
Contraceptive Use, Guttmacher Inst. (April 2011), http://
www.guttmacher.org/pubs/Religion-and-ContraceptiveUse.pdf; Megan L. Kavanaugh & Jenna Jerman,
Contraceptive Method Use In The United States: Trends
and Characteristics Between 2008, 2012 and 2014,
Guttmacher Inst. (Oct. 2017), https://www.guttmacher.
org/article/2017/10/contraceptive-method-use-unitedstates-trends-and-characteristics-between-2008-2012.
Given women’s unique reproductive health needs, there is
a compelling interest in ensuring, for as many women as
possible, access to effective contraception that is medically
appropriate for them.
1.

Un i nt end e d P r eg n a nc y a nd S hor t
Interpregnancy Intervals Pose Health
Risks to Women and Children

Unintended pregnancy remains a significant public
health concern in the United States; the unintended
pregnancy rate in the United States is substantially higher
than that in other highly industrialized regions of the
world. Lawrence B. Finer & Mia R. Zolna, Unintended
Pregnancy in the United States: Incidence and
Disparities, 2006, 84 Contraception 478, 478, 482 (2011);
Am. Coll. of Obstetricians & Gynecologists, Guidelines
For Women’s Health Care 343 (4th ed. 2014) (“ACOG
Guidelines”) at 343. Approximately 45% of all pregnancies
in the United States are unintended. Lawrence B. Finer &
Mia R. Zolna, Declines in Unintended Pregnancy in the
United States, 2008–2011, 374:9 New Eng. J. Med. 843-852
(2016), http://nejm.org/doi/full/10.1056/NEJMsa1506575;
see also ACOG Guidelines at 343.

10
Women with unintended pregnancies are more likely
to receive delayed prenatal care and to be anxious or
depressed during pregnancy. Jessica D. Gipson et al.,
The Effects of Unintended Pregnancy on Infant, Child,
and Parental Health: A Review of the Literature, 39
Stud. in Fam. Planning 18, 22, 28-29 (2008). Women with
unintended pregnancies have been shown to be less likely
to breastfeed, which has demonstrated health benefits for
the mother and her child. See Am. Acad. of Pediatrics,
Policy Statement: Breastfeeding and the Use of Human
Milk, 129 Pediatrics 827, 831 (2012) (noting maternal
benefits of breastfeeding, including less postpartum blood
loss and fewer incidents of postpartum depression and
child benefits).
A woman’s unintended pregnancy may also have
lasting effects on her child’s health; low birth weight
and preterm birth, which have long term sequelae, are
associated with unintended pregnancies. Prakesh S.
Shah et al., Intention to Become Pregnant and Low Birth
Weight and Preterm Birth: A Systematic Review, 15
M aternal & Child Health J. 205, 205-206 (2011).
Contraception is undeniably effective at reducing
unintended pregnancy. The approximately 68% of U.S.
women at risk for unintended pregnancies who use
contraceptives consistently and correctly throughout
the course of any given year account for only 5% of
all unintended pregnancies. By contrast, the 18% of
women at risk who use contraceptives inconsistently or
incorrectly account for 41% of all unintended pregnancies.
The remaining 14% of women at risk who do not practice
contraception at all, or who have gaps in usage of a month
or more during each year, account for 54% of all unintended

11
pregnancies. Guttmacher Inst., Moving Forward: Family
Planning in the Era of Health Reform, 8-9 (Mar. 2014),
https://www.guttmacher.org/report/moving-forwardfamily-planning-era-health-reform.
Contraception not only helps to avoid unwanted
pregnancies, but it also helps women plan their pregnancies
and determine the optimal timing and spacing of them,
which improves their own health and the well-being of
their children. Pregnancies that are too frequent and too
closely spaced, which are more likely when contraception is
more difficult to obtain, put women at significantly greater
risk for permanent physical health damage. Such damage
can include: uterine prolapse (downward displacement of
the uterus), rectocele (hernial protrusion of the rectum
into the vagina), cystocele (hernial protrusion of the
urinary bladder through the vaginal wall), rectus muscle
diastasis (separation of the abdominal wall) and pelvic floor
disorders. Additionally, women with short interpregnancy
intervals are at greater risk for third trimester bleeding,
premature rupture of membranes, puerperal endometritis,
anemia, and maternal death. Agustin Conde-Agudelo &
Jose M. Belizan, Maternal Morbidity and Mortality
Associated with Interpregnancy Interval: Cross Sectional
Study, 321 British Med. J. 1255, 1257 (2000).
Studies have linked unintended childbear ing
w ith a number of adverse prenatal and perinatal
outcomes, including inadequate or delayed initiation of
prenatal care, prematurity, low birth weight, absence of
breastfeeding, poor maternal mental health, and reduced
mother-child relationship quality. U.S. Department of
Health and Human Services, Health Resources and
Services Administration, & Maternal and Child Health

12
Bureau, Unintended Pregnancy and Contraception
(2011), http://www.mchb.hrsa.gov/whusa11/hstat/hsrmh
/pages/227upc.html; Gipson, supra; Agustin CondeAgudelo et al., Birth Spacing and Risk of Adverse
Perinatal Outcomes: A Meta -Analysis, 295 J. A m .
Med. A ss’n 1809, 1821 (2006); Bao-Ping Zhu, Effect of
Interpregnancy Interval on Birth Outcomes: Findings
From Three Recent U.S. Studies, 89 Int ’l J. Gynecol. &
Obstet. S25, S26, S31 (2005); Am. Acad. Of Pediatrics &
Am. Coll. of Obstetricians & Gynecologists, Guidelines
for P erinata l Ca re , 205-206 (8th ed. 2017). Some
studies find that children born as a result of unintended
pregnancies have poorer physical and mental health and
have impaired mother-child relationships as compared
with children from pregnancies that were intended.
Gipson, supra; Lina Guzman et al., Unintended Births:
Patterns by Race and Ethnicity and Relationship Type,
42:3 Persp. on Sexual & Reprod. Health 176-185 (2010).
These recognized benefits of contraceptives have
led the CDC to identify family planning as one of the
greatest public health achievements of the twentieth
century. The CDC has found that smaller families and
longer birth intervals contribute to the better health of
infants, children, and women, and improve the social and
economic status of women. Ctrs. for Disease Control &
Prevention, Achievements in Public Health, 1900-1999:
Family Planning, (Dec. 3, 1999), http://www.cdc.gov/
mmwr/preview/mmwrhtml/mm4847a1.htm.
2.

Contraception is Beneficial for Women
with Certain Health Conditions or Risks

Contraception protects the health of those women
for whom pregnancy can be hazardous, or even life-

13
threatening. Ctrs. for Disease Control & Prevention, U.S.
Medical Eligibility Criteria for Contraceptive Use, 2010
Vol. 59 (June 18, 2010), http://www.cdc.gov/mmwr/pdf/
rr/rr5904.pdf. Women with certain chronic conditions
such as heart disease, diabetes mellitus, hypertension,
and renal disease are at increased risk for complications
during pregnancy. Other chronic conditions complicated
by pregnancy include sickle-cell disease, cancer, epilepsy,
lupus, rheumatoid arthritis, hypertension, asthma,
pneumonia and HIV. See generally, F. Gary Cunningham
et al., Williams Obstetrics 958-1338 (23d ed. 2010); ACOG
Guidelines at 187; see also Harris v. McRae, 448 U.S.
297, 339 (1980) (Marshall, J., dissenting) (“Numerous
conditions—such as cancer, rheumatic fever, diabetes,
malnutrition, phlebitis, sickle cell anemia, and heart
disease—substantially increase the risks associated with
pregnancy or are themselves aggravated by pregnancy.”).
In addition to preventing pregnancy, contraception has
other scientifically recognized uses and health benefits.
Hormonal birth control helps address several menstrual
disorders, helps prevent menstrual migraines, treats
pelvic pain from endometriosis, and treats bleeding from
uterine fibroids. Ronald Burkman et al., Safety Concerns
and Health Benefits Associated With Oral Contraception,
190 A m. J. of Obstet. & Gynecol. S5, S12 (2004). Oral
contraceptives have been shown to have long-term benefits
in reducing a woman’s risk of developing endometrial and
ovarian cancer, protecting against pelvic inflammatory
disease and certain benign breast disease, and short-term
benefits in protecting against colorectal cancer. Id. See
also IOM Report at 107.

14
B. Providing Contraceptive Coverage At No
Additional Cost Promotes Use of Effective and
Appropriate Contraception
The Circuit Court’s determination that, “[w]ithout
insurance to defray or eliminate the cost for the moreeffective contraceptive methods, women will use less
expensive and less effective methods” (Pet. App. at
24a) (internal quotation marks and citation omitted), is
consistent with the scientific research.
Numerous studies confirm that cost is a significant
consideration for many women in their choice of
contraception, as well as its proper and consistent use.
See Guttmacher Inst., Testimony of Guttmacher Institute
Submitted to the Committee on Preventive Services for
Women Institute of Medicine, 8 (Jan. 12, 2011), http://www.
guttmacher.org/pubs/CPSW-testimony.pdf (“Guttmacher
Testimony”). Relatedly, insurance coverage has been
shown to be a “major factor” for a woman when choosing
a contraceptive method and determines whether she
will continue using it. Kelly R. Culwell & Joe Feinglass,
Changes in Prescription Contraceptive Use, 1995-2002:
The Effect of Insurance Status, 110 Obstet. & Gyn. 1371,
1378 (2007); Debbie Postlethwaite et al., A Comparison
of Contraceptive Procurement Pre- and Post-Benefit
Change, 76 Contraception 360, 360 (2007) (elimination
of cost-sharing for contraceptives at Kaiser Permanente
Northern California resulted in significant increases in
the use of the most effective forms of contraceptives); Kelly
R. Culwell & Joe Feinglass, The Association of Health
Insurance with Use of Prescription Contraceptives, 39
Persp. on Sexual & Reprod. Health 226, 226 (2007) (study
reveals that uninsured women were 30% less likely to use

15
prescription contraceptives than women with some form
of health insurance).
Lack of insurance coverage deters many women
from choosing a higher-cost contraceptive, even if that
method is best for her, and may result in her resorting
to an alternative method that places her more at risk for
medical complications or improper or inconsistent use,
with the attendant risk of unintended pregnancy. This link
between no-cost insurance coverage and health outcomes
is substantial because the most effective contraception is
also the most expensive option. The intrauterine device
(“IUD”), a long-acting reversible contraceptive method
(“LARC”) that does not require regular action by the user,
is among the most effective forms of contraception, but
it has substantial up-front costs that can exceed $1,000.4
David Eisenberg et al., Cost as a Barrier to Long-Acting
Reversible Contraceptive (LARC) Use in Adolescents, J.
of A dolescent Health, 52(4):S59–S63 (2013), http://www.
jahonline.org/article/S1054-139X(13)00054-2/fulltext; see
also Brooke Winner et al., Effectiveness of Long-Acting
Reversible Contraception, 366 New Eng. J. Med. 1998,
2004-05 (2012) (finding a failure rate of 4.55 per 100
participants among those who used oral contraceptive
pills, the patch or vaginal ring, compared to 0.27 for those
using LARCs); Megan L. Kavanaugh et al., Perceived
and Insurance-Related Barriers to the Provision of
Contraceptive Services in U.S. Abortion Care Settings,
21 Women’s Health Issues S26, S26 (3d Suppl. 2011)
4. The IUD, as well as sterilization and the implant, have failure
rates of 1% or less. Failure rates for injectable or oral contraceptives
are 7% and 9% respectively, because some women skip or delay an
injection or pill. Guttmacher Testimony at 2.

16
(finding that cost can be a barrier to the selection and
use of LARCs and other effective forms of contraceptives,
such as the patch, pills, and the ring); E.A. Aztlan-James
et al., Multiple Unintended Pregnancies in U.S. Women:
A Systematic Review, 27 Women’s Health Issues 407
(2017) (finding that the use of IUDs decreases the risk of
multiple unintended pregnancies). The out-of-pocket cost
for a woman to initiate LARC methods was 10 times higher
than a 1-month supply of generic oral contraceptives.
Stacie B. Dusetzina et al., Cost of Contraceptive Methods
to Privately Insured Women in the United States, 23
Women’s Health Issues e69, e70 (2013).
A national survey conducted in 2004 found that onethird of women using contraception would switch methods
if cost were not a factor. Jennifer J. Frost & Jacqueline
E. Darroch, Factors Associated with Contraceptive
Choice and Inconsistent Method Use, United States,
2004, 40:2 Persp. on Sexual & Reprod. Health 94, 103
(2008). See also Su-Ying Liang et al., Women’s Outof-Pocket Expenditures and Dispensing Patterns for
Oral Contraceptive Pills Between 1996 and 2006, 83
Contraception 528, 531 (2011) (approximately one-third of
women using contraception report that they would change
their contraceptive method if cost were not an issue). In a
study in which 9,000 participants were offered the choice of
any contraceptive method at no cost, 75% chose long-acting
methods, such as the IUD or implant. Jeffrey Peipert et
al., Preventing Unintended Pregnancies by Providing
No-Cost Contraception, 120 Obstet. & Gynecol. 1291,
1291 (2012).
The rate of unintended pregnancies is highest among
poor and low-income women—those least able to absorb

17
the added financial burden of contraception. For example,
in 2011, the national rate of unintended pregnancy was 45
for every 1,000 women aged 18-44 (4.5%). However, among
higher-income women (those with incomes of at least 200%
of the federal poverty level), the unintended pregnancy
rate dropped to 20 per 1,000, or 2%. By contrast, the
rate of unintended pregnancy among poor women (those
with incomes below the federal poverty level) was more
than five times that, with 112 unintended pregnancies
per 1,000 women (11.2%). Guttmacher Inst., Unintended
Pregnancy in the United States, 2 (Jan. 2019), https://
www.guttmacher.org/sites/default/files/factsheet/fbunintended-pregnancy-us_0.pdf.
A study of women at high risk of unintended
pregnancy who had free access to and used highly effective
methods of contraception showed that they had much lower
rates of unintended pregnancy than did those who used
other methods, including less expensive methods such
as the oral contraceptive pill. Among adolescents, oral
contraceptives have been found to be less effective due
to faulty compliance (e.g., not taking the pill every day or
at the same time each day), and therefore more passive
contraceptive methods like IUDs and other LARCs are
often preferable, but they have forbidding up-front costs.
Am. Acad. of Pediatrics, Policy Statement: Contraception
and Adolescents, 120 Pediatrics 1135, 1136 (2007); Am.
Coll. of Obstetricians & Gynecologists, Increasing Access
to Contraceptive Implants and Intrauterine Devices to
Reduce Unintended Pregnancy, Comm. Op. 642, Oct.
2015 (reaffirmed 2018).
Even seemingly insubstantial additional cost
requirements can dramatically reduce women’s use

18
of health care services. Adam Sonfield, The Case for
Insurance Coverage of Contraceptive Services and
Supplies Without Cost-Sharing, 14 Guttmacher Pol’y
Rev. 7, 10 (2011). For this reason, pre-ACA conventional
coverage alone has been shown to be insufficient, as copays and deductibles required by insurance plans may
still render the most effective contraception unaffordable.
See Jodi Nearns, Health Insurance Coverage and
Prescription Contraceptive Use Among Young Women
at Risk for Unintended Pregnancy, 79 Contraception
105 (2009) (financial barriers, including lack of insurance,
or substantial co-payments or deductibles, may deprive
women of access to contraception).
Studies of the period after the ACA’s contraceptive
mandate went into effect confirm that it is having
a “positive impact” on reducing inconsistent use of
contraceptives and increasing use of prescription—and
more effective—forms of contraception. Adam Sonfield,
What is at Stake with the Federal Contraceptive Coverage
Guarantee?, 20 Guttmacher Pol’ y Rev. 8, 10 (2017),
https://www.guttmacher.org/gpr/2017/01/what-stakefederal-contraceptive-coverage-guarantee. When relieved
of cost-sharing, women choose the most effective methods
more often, with favorable implications for the rate of
unintended pregnancy. Laurie Sobel et al., The Future of
Contraceptive Coverage, Kaiser Family Foundation Issue
Brief (2017), https://www.kff.org/womens-health-policy/
issue-brief/the-future-of-contraceptive-coverage/.
A study of nearly 30,000 participants found that
compliance with the ACA’s requirement of contraception
coverage with no cost-sharing significantly increased
the probability that a woman would choose a long-term

19
contraceptive. The study predicts that eliminating out of
pocket spending on contraception increases the overall
rate of choosing prescription contraceptives, and long-term
options in particular. Caroline S. Carlin et al., Affordable
Care Act’s Mandate Eliminating Contraceptive Cost
Sharing Influenced Choices of Women With Employer
Coverage, 35:9 Health A ffairs 1608-1615 (2016). A more
recent study has confirmed this prediction. Ashley H.
Snyder et al., The Impact of the Affordable Care Act on
Contraceptive Use and Costs among Privately Insured
Women, 28 Women’s Health Issues 219-223 (2018).
Women and couples are more likely to use contraception
successfully when they can choose the contraceptive
method that is personally best for them. Frost &
Darroch, supra. And data compiled over several decades
demonstrate the significant health benefits to women and
families when a woman can choose to delay the birth of
her first child and can plan the spacing of any subsequent
children. There is a strong national interest in reducing
unintended pregnancies and in ensuring that women retain
access to the full range of FDA-approved contraceptives so
that those who choose to use contraception can make their
decisions based on evidence-based policies and standards
of care, rather than ability to pay.
II. THE Final Rules RESTRICT ACCESS TO
CARE AND cOMPROMISE THE PATIENT
PROVIDER RELATIONSHIP BY DIVORCING
REPRODUCTIVE HEALTH FROM OTHER
PREVENTIVE HEALTH CARE SERVICES
By establishing additional exemptions that allow
individual employers to opt out of contraceptive coverage,

20
including on the basis of moral convictions not based in any
particular religious belief, the Final Rules will undeniably
reduce the availability of contraceptive coverage for
women who want it. An employer’s decision to opt out
of contraceptive coverage under the Final Rules would
jeopardize access to contraception for all covered adult
and adolescent family members. Additionally, because
the Final Rules make the existing accommodation a
mere voluntary alternative to outright exemption, they
not only limit access to contraceptive coverage under a
woman’s existing health plan, but may also limit access
to contraception coverage entirely. The Final Rules
themselves provide no solution for women who seek access
to contraception, but whose employers claim a moral
objection, aside from suggesting that they might avail
themselves of other governmental programs or obtain
contraceptive coverage elsewhere. See, e.g.,83 Fed. Reg.
57,536 (Nov.15, 2018) at 57,548 (asserting the availability
of contraceptive coverage from other sources, including
governmental programs for low-income women). The Final
Rules, thus, threaten access to seamless care for countless
women, resulting in grave harm to the public health.
A.

The Final Rules Undermine the PatientProvider Relationship

The patient-provider relationship is essential to all
health care. For many women of reproductive age, their
well-woman visits are their primary, if not exclusive,
contact with the health care system. ACOG Guidelines
at 201. Deciding on the best form of contraception for any
specific patient should take place within this established
patient-provider relationship. This is particularly true
given the highly personal nature of the reproductive

21
health and family planning services that are at issue
here. Based on an evidence-based report issued by
the CDC, ACOG stresses the importance of “effective
and efficient patient-practitioner communication about
reproductive life planning . . . .”). Am. Coll. of Obstetricians
& Gynecologists, Reproductive Life Planning to Reduce
Unintended Pregnancy, Comm. Op. 654, 127 Obstet. &
Gynecol. 66, 67 (Feb. 2016). Prescribing birth control is
typically far more intimate and extensive than signing a
prescription pad; in addition, it involves medical screening
to ensure that a particular birth control method is not
contraindicated, as well as patient counseling. Women
should be able to make these personal decisions—
decisions that often require sharing intimate details of
their sexual history and family planning—with health
care professionals they have sought out and trust.
Even if a woman is prepared to obtain contraceptive
coverage outside of her regular health system, she may
not be able to choose her health care professional, or
see the same practitioner for follow-up visits. In either
case, the surrogate health care provider may have more
limited information about the patient, whose care may
be compromised as a result. Continuity of care has been
shown to affect continuity and consistency of contraceptive
use and women who are not satisfied with their health care
professional, who do not see the same professional at visits,
or who feel they cannot call their health care provider
between visits are more likely to use contraception
inconsistently. See Frost & Darroch, 40 Persps. on Sexual
& Reprod. Health at 100.
As currently implemented, the contraceptive coverage
requirement ensures seamless, no-cost coverage and

22
continuity of care within the existing patient-physician
relationship. Women should be able to make these personal
decisions regarding their reproductive health —decisions
that often require sharing intimate details of their sexual
history and private family planning—in collaboration with
their trusted health care providers. The patient’s employer
should not be part of that decision-making process, no
matter his particular beliefs.
B. The Final Rules Undermine Seamless and
Equal Access to Care for Many Women
The Final Rules could remove contraceptive coverage
under the health plan that covers a woman’s other routine
health services, or could remove coverage for the form of
contraception that is most appropriate for her. Upon selfexemption by her employer, a woman would be pushed
into a two-tiered system of insurance coverage—one for
her overall health needs and one limited to contraceptive
care (if such option is even available)—or be forced to
pay out of pocket for these services. See 83 Fed. Reg. at
57,549 (acknowledging that some women may not receive
contraceptive coverage, but contending that “Congress
did not create a right to receive contraceptive coverage”
in the ACA), By requiring women to seek out alternative
coverage (or forego coverage entirely) for what is and
should be a routine health care service, the Final Rules
contravene the Supreme Court’s express directive that
women covered by insurance plans of any employer
objecting to contraceptive coverage still “receive full and
equal health coverage, including contraceptive coverage.”
Zubik v. Burwell, 136 S. Ct. 1557, 1560 (2016). As Justice
Sotomayor aptly recognized in her concurring opinion in
that case:

23
Requiring standalone contraceptive-only
coverage would leave in limbo all of the women
now guaranteed seamless preventive-care
coverage under the Affordable Care Act. And
requiring that women affirmatively opt into
such coverage would ‘impose precisely the kind
of barrier to the delivery of preventive services
that Congress sought to eliminate.’
Id. at 1561(noting that lower courts could “consider only
whether existing or modified regulations could provide
seamless contraceptive coverage to petitioners’ employees,
through petitioners’ insurance companies . . .”) (emphasis
added) (internal quotation marks and citation omitted).
The Final Rules expressly reject the principle that
seamless coverage serves a compelling national interest
and, thus, impermissibly deny women access to the full
range of preventive services to which they are entitled
under the ACA. See, e.g., 83 Fed. Reg. at 57,548.
Petitioners claim that “no compelling government
interest will be undermined by allowing additional
religious objectors to opt out,” and point to “the alternative
avenues available for obtaining contraceptive coverage.”
Pet. Donald J. Trump’s Br. at 26-27 (internal quotation
marks and citations omitted). Among the alternatives
Petitioners propose are “existing federal, state, and
local programs” and “paying out of pocket.” Id. at 27, 47.
Petitioners ignore the fact that, while women who lose
contraceptive insurance coverage “will seek out . . . statefunded programs and services,” many of those programs
are income-based and “women who do not seek or qualify
for state-funded contraceptives may have unintended
pregnancies.” Pet. App. at 19a. Further, as the Circuit

24
Court noted, other alternatives, such as Title X clinics,
are facing decreased federal funding and are ill-equipped
to handle the increased demand that would result from
implementation of the Final Rules. Id. at 18a. The Final
Rules, thus, represent a significant and impermissible step
backwards in achieving the ACA’s goals of, among other
things, expanding access to and improving preventive care
services for women and reducing the gender disparities
with respect to the cost of health care services.
Just as direct cost barriers deter women from using
appropriate contraception, or from using appropriate
contraception consistently, administrative or logistical
barriers are also likely to result in lower or less consistent
utilization rates. If access to appropriate, cost-free
contraception is removed from women’s routine health
care services or is made more difficult, or costly, to obtain,
the likely result is that many women will simply not use
contraception, will use an imperfect form of contraception,
or will use contraception inconsistently or improperly.
Any of these scenarios portend an increase in unintended
pregnancies with all their consequences.
“Considerable research shows that modest procedural
requirements—completing a simple form or even checking
a box—can greatly lower participation levels in public and
private benefit programs.” Frederic Blavin et al., Using
Behavioral Economics to Inform the Integration of Human
Services and Health Programs under the Affordable
Care Act, Urban Inst., ii (July 2014), https://www.urban.
org/sites/default/files/publication/22956/413230-UsingBehavioral-Economics-to-Inform-the-Integration-ofHuman-Services-and-Health-Programs-under-theAffordable-Care-Act.PDF; see also Dahlia K. Remler &

25
Sherry A. Glied, What Other Programs Can Teach Us:
Increasing Participation in Health Insurance Programs,
93 A merican J. Pub. Health 67, 67 (2003) (recognizing
impact of nonfinancial features, such as administrative
complexity, on enrollment); Cass R. Sunstein, Nudges.
gov: Behavioral Economics and Regulation 3 (Feb.
2013), http://tinyurl.com/nudgesgov (reducing paperwork
burdens results in greater participation in public
programs).
The most effective means of ensuring high utilization
rates is when benefits are provided automatically. Remler
& Glied, supra (observing, as a “striking pattern,” that
programs where “no ‘extra action’ is required” have the
highest “take up” or participation rates). In Louisiana,
when a child’s enrollment in Medicaid was de-linked
from the Supplemental Nutrition Assistance Program
(SNAP) in 2011, thus requiring parents to check a box
on the SNAP application form, enrollment in Medicaid
through SNAP dropped off by an average of 62% per
month. Blavin, supra at 8 (noting that de-linking programs
caused decline notwithstanding that “the check-box was
highlighted, bolded, prominently placed” and written in
clear language). 5 And even the seemingly minor burden
of having to renew or refill prescriptions more frequently
results in reduced compliance and an increased risk
of pregnancy. See Diana Greene Foster et al., Number
of Oral Contraceptive Pill Packages Dispensed and
5. Numerous other studies demonstrate the impact of requiring
prospective participants to affirmatively opt-in on participation
rates, including with respect to organ donation, car insurance
preferences, and online privacy settings and information sharing.
See Cass R. Sunstein, Deciding by Default, 162 U. Pa. L. Rev. 1
(2013) (summarizing studies).

26
Subsequent Unintended Pregnancies, 117 O bstet. &
Gynecol. 566, 570-71 (2011).
Alternative arrangements, including safety net
health programs and providers, require a woman to take
additional steps for contraceptive coverage beyond what
is required for other covered services—by enrolling in
a separate plan on an exchange, making a separate visit
for contraceptive services, and/or paying out of pocket
for covered services and seeking a tax credit. None of
these proposed alternatives provide seamless no-cost
coverage and therefore all would compromise the ACA’s
objective of facilitating access to contraception for all
women who want it. As the Government itself argued
when addressing similar proposed alternatives in Zubik,
these proposals “would undermine the government’s
compelling interest by imposing on tens of thousands of
women seeking contraceptive coverage the very sort of
obstacles the Women’s Health Amendment was designed
to eliminate.” Brief for the Respondents, Zubik v. Burwell,
2016 WL 537623, at *73 (U.S. Feb. 10, 2016). See also id.,
at *29 (asserting that added burdens for women to obtain
contraceptive coverage “would thwart the basic purposes
of the Women’s Health Amendment, which was enacted
to ensure that women receive equal health coverage and
to remove barriers to the use of preventive services.”).
Additionally, when women face informational gaps
on obtaining coverage for contraceptives outside of their
employer-provided plan, this further exacerbates any
administrative barriers discussed above. Any failure
to adequately inform plan beneficiaries how no-cost
contraceptive coverage can be obtained (or even that it
is available at all) necessarily impedes the government’s

27
objective of promoting contraceptive coverage and
deprives plan beneficiaries of the rights secured by the
ACA coverage requirement.
CONCLUSION
Amici respectfully urge that the judgment of the court
of appeals be affirmed.
Dated: April 8, 2020
			Respectfully submitted,
Bruce H. Schneider
Counsel of Record
Michele L. Pahmer
Darya D. A nichkova
Stroock & Stroock & Lavan LLP
180 Maiden Lane
New York, New York 10038
(212) 806-5400
bschneider@stroock.com
Counsel for Amici Curiae

